           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



        PRISONERS’ ACCESS TO
      SOCIAL SECURITY NUMBERS


    August 2006   A-08-06-16082




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                        SOCIAL SECURITY
MEMORANDUM

Date:   August 23, 2006                                                                Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Prisoners’ Access to Social Security Numbers (A-08-06-16082)



        OBJECTIVE

        Our objective was to assess the extent to which prisoners have access to Social
        Security numbers (SSNs) through work programs and the potential risks associated with
        such access.

        BACKGROUND

        Some prisons allow inmates to work while incarcerated. While performing some job
        functions, prisoners have access to other individuals’ SSNs. In 1999, the Government
        Accountability Office found that inmates in the Federal Bureau of Prisons (BoP) and
        State prison systems had access to personal information (including SSNs) through
        correctional industry work programs. These inmates performed such duties as data
        entry as well as duplicating and scanning medical records, automobile registrations, and
        unemployment records for Federal, State, or local governments. 1 Pending Federal
        legislation, if enacted, would prohibit executive, legislative, and judicial agencies, as well
        as instrumentalities of the Federal Government or of a State or political subdivision
        thereof, from employing prisoners in any capacity that allows prisoners access to
        SSNs. 2 Furthermore, the BoP prohibits inmates from scanning documents containing
        sensitive information. 3

        We contacted the Department of Corrections and correctional industry work programs in
        all 50 States and the BoP. We asked each State and the BoP whether inmates were
        allowed access to SSNs through their job duties and whether a State statute or policy

        1
          Government Accountability Office report, Prison Work Programs: Inmates’ Access to Personal
        Information (GAO/GGD-99-146), August 1999.
        2
         2005 H.R. 1745, Social Security Number Privacy and Identity Theft Prevention Act of 2005, § 105,
        Prohibition of Inmate Access to Social Security Account Numbers, introduced April 2005.
        3
         BoP Program Statement 1237.11, Section 9.e., Inmate Use of Computers, Document Scanners,
        October 24, 1997.
Page 2 - The Commissioner


prohibited such access. We also made site visits to three prisons in which inmates
were allowed access to SSNs. Appendix A contains additional details regarding our
scope and methodology. Appendix B contains a list of States and the number of
prisons in each State that allow inmate access to SSNs.

RESULTS OF REVIEW

Based on our interviews with State Department of Corrections and correctional industry
work programs personnel and reviews of prison policies and practices, we are
concerned about prisoners’ access to SSNs. 4 Despite the increasing threat of identity
theft, we identified prisons in 13 States that allowed inmates access to SSNs through
various work programs. Although prisons placed controls over SSN access,
vulnerabilities remained. Based on our previous audit and investigative findings, we
know that unnecessary access, disclosure, and use of SSNs increases the potential for
dishonest individuals to obtain and misuse these numbers, thus creating SSN integrity
issues. Some State and prison officials with whom we spoke shared our concern and
have taken additional steps to limit prisoners’ access to SSNs.

SOME PRISONS ALLOWED INMATES ACCESS TO SSNs THROUGH PRISON
WORK PROGRAMS

Of the 50 States we contacted, 13 (26 percent) allowed inmates access to SSNs
through prison work programs (see Appendix B). Prisoners had access to SSNs by
performing such duties as data processing, optical imaging, scanning, and records
conversion of documents for State agencies, universities, hospitals, and private
businesses. The types of documents inmates viewed included marriage, birth, and
death certificates; vehicle accident reports; tax appeal documents; and medical claims,
all of which generally contained personal identifying information (including SSNs). The
following examples illustrate how some States allowed prisoners access to SSNs.

•   At six correctional facilities in Tennessee, prisoners scanned and entered motor
    vehicle titles and registration forms, traffic citations, and insurance cancellation
    claims, which generally contained SSNs.

•   At two correctional facilities in Oklahoma, prisoners converted such documents as
    payroll records, vehicle titles, and medical records into microfilm or optical images.
    These documents generally contained personal identifying information (including
    SSNs).

•   At one correctional facility in Nebraska, prisoners entered SSNs from wage and
    medical claims records. For the State’s correctional industry purchasing
    department, inmates filed purchase orders, which contained the purchasers’ tax
    identification numbers or SSNs.

4
 Our interviews with the Federal BoP revealed that it does not permit inmate access to SSNs.
Accordingly, our concern is limited to State correctional facilities that continue to allow such access.
Page 3 - The Commissioner


Correctional industry personnel told us States allow prisoners to perform various jobs
because it gives them a sense of self-worth, provides them an income, and equips them
with skills they can use upon release from prison. In addition, some States generate
income from correctional industry work program contracts that allow prisoners access to
personal information. Further, the State agencies that contract with the prisons for
these services generally save money because prisoners receive lower wages than the
general population. Although we recognize these benefits, we question whether
prisoners have a need to know other individuals’ SSNs. We believe allowing prisoners
access to SSNs increases the risk that individuals may improperly obtain and misuse
the SSN. In fact, correctional industry officials acknowledged the potential risks for
identity theft and fraud, and one State director told us her State is committed to
eliminating inmate access to SSNs. She stated our review helped focus attention on
the need to better safeguard SSNs.

We believe States can reduce the risk of prisoners improperly obtaining and misusing
SSNs by employing them in jobs that do not involve SSN access. For example, we
reviewed the National Correctional Industries Association directory and identified
numerous jobs, such as metal fabrication, woodworking, sewing, and food processing
that do not generally require prisoner access to SSNs. These types of jobs provide
prisoners with valuable skills and generate income for States, while limiting SSN
access.

PRISONS PLACED CONTROLS OVER INMATE ACCESS TO SSNs BUT
VULNERABILITIES STILL EXISTED

Prisons had some controls in place to safeguard SSNs. For example, some prisons
(1) monitored inmate activity through security cameras and guards, (2) searched
inmates before entering and exiting the worksite, (3) required that inmates sign a
confidentiality agreement stating they would not improperly disclose and/or use SSNs,
and (4) counted and verified batches of documents before and after completion of work.
In addition, some prisons prohibited inmates convicted of identity theft from working in
jobs in which they had access to SSNs.

While we recognize prisons have controls to protect SSNs, we are concerned that
individuals intent on criminal activity may attempt to circumvent these controls. For
example, prisoners interested in improperly obtaining an SSN could memorize an SSN
obtained through their job duties and use it to create a false identity. Moreover, we
question whether requiring that prisoners sign a confidentiality agreement is an effective
control to prevent SSN misuse and ensure SSN integrity.

Although we did not identify instances in which prisoners improperly obtained and
misused SSNs at the prisons we visited, we believe the potential for such activity exists.
The following example illustrates how inmates can gain access to personal identifying
information when prisons do not have adequate controls in place.
Page 4 - The Commissioner


•     Inmates at a California prison allegedly gained access to personal information about
      employees, including their SSNs, birth dates and pension account information, while
      working in a warehouse where the confidential information was stored. The fact that
      inmates worked in the warehouse violated a law 5 barring the Department of
      Corrections from assigning prisoners to jobs that give them access to others’
      personal information (including SSNs). In fact, one prisoner found with confidential
      records reportedly asked an inmate serving time for identity theft to teach him how to
      use the information. Prison officials did not know how many prisoners might have
      obtained the personal information. The incident is being investigated.

SOME STATES HAD TAKEN STEPS TO LIMIT PRISONER ACCESS TO SSNs

The increase in identity theft and the recognition that SSNs are linked to vast amounts
of personal information have led some States to reconsider the practice of allowing
prisoners access to SSNs. Some States have taken steps to limit prisoners’ access to
SSNs or have discontinued jobs that allowed such access. In addition, some States
have enacted laws to regulate prisoners’ access to SSNs. 6 The following examples
illustrate how three States limit prisoners’ access to SSNs.

•     A correctional complex in Kentucky used software to redact personal information
      from documents processed by prisoners. After correctional industry employees scan
      documents, the redaction software removes personal information before the prisoner
      receives it for processing. Once prisoners complete data entry duties, the software
      merges the personal information back onto the document. Throughout the process,
      prisoners do not have access to the entire SSN.

•     A correctional facility in North Carolina instructed prison employees to remove SSNs
      from order forms before inmates processed them. North Carolina has also stopped
      allowing prisoners to access SSNs through its work release jobs and inmate work
      assignments.

•     Utah Correctional Industries used software to redact portions of SSNs from health
      forms that prisoners processed for a State agency. While the redaction process
      prevented most prisoners from seeing individuals’ entire SSNs, a few prisoners
      scanned the forms before the redaction process, which allowed them to view the
      entire SSN.

Although officials at Oklahoma Correctional Industries told us they had redaction
software, they did not use it because their clients requested them not to do so. Officials
told us their clients believed such software increased the cost and time for document
preparation, and data were more secure with prisoners because they could not take the


5
    California Penal Code §§ 4017.1 and 5071.
6
 These States include California (California Penal Code §§ 4017.1 and 5071), Illinois (§ 730 ILCS 5/3-
12-15), and Texas (Tex. Gov’t Code § 497.011).
Page 5 - The Commissioner


information home with them. Furthermore, clients believed prison security measures,
such as security cameras, full-time supervision, and screening of prisoner mail and
telephone calls were adequate to prevent improper SSN attainment.

CONCLUSION AND RECOMMENDATIONS
Despite the risks associated with prisoners’ access to SSNs, some prisons continue this
practice. While we recognize SSA cannot prohibit prisons from allowing prisoners
access to SSNs, we believe it can help reduce potential threats to SSN integrity by
encouraging States to limit SSN access. We also recognize that some States generate
income or save money from correctional industry work program contracts. However,
given the potential threats to SSN integrity, we believe SSA should take steps to
safeguard SSNs. Accordingly, we recommend that SSA:

1. Coordinate with Department of Corrections and correctional industry work programs
   to educate them about the potential risks associated with allowing prisoners access
   to SSNs. For example, we believe SSA should consider hosting or participating in
   conferences to discuss ways prisons can enhance SSN integrity.

2. Encourage prisons to limit prisoners’ access to SSNs. For example, we believe
   prisons should safeguard SSNs by limiting access to prison personnel with a need to
   know and avoid displaying the entire SSN on any document, screen, or data
   collection field.

3. Promote the best practices of prisons that are taking steps to limit prisoners’ access
   to SSNs. For example, SSA could contribute articles to Department of
   Corrections/correctional industries journals and association newsletters.

AGENCY COMMENTS
SSA agreed with our recommendations. The Agency’s comments are included in
Appendix C.




                                             S
                                             Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Scope and Methodology
APPENDIX B – States That Allow Prisoners Access to Social Security Numbers
APPENDIX C – Agency Comments
APPENDIX D – OIG Contacts and Staff Acknowledgments
                                                                       Appendix A

Scope and Methodology
To accomplish our objectives, we

•   reviewed applicable laws and regulations;

•   reviewed a prior Government Accountability Office report;

•   contacted 50 States and the Federal Bureau of Prisons to determine whether
    prisoners were allowed access to Social Security numbers; and

•   visited three prisons in two States that allowed prisoners access to Social Security
    numbers.

The entity audited was the Social Security Administration’s Office of the Deputy
Commissioner for Operations. Our review of internal controls was limited to information
provided by the State departments of corrections and the State correctional industries’
work programs for the 50 States and the Federal Bureau of Prisons. We conducted our
audit from October 2005 through April 2006 in accordance with generally accepted
government auditing standards.
                                                                             Appendix B

States That Allow Prisoners Access to Social
Security Numbers
                     Number of
                     Facilities
        State                                  Work Program and Type of Work
                      Allowing
                      Access

1    Alabama             1        Correctional Industry (CI) – data entry

2    Arkansas            1        CI – digital imaging

3    Connecticut         1        CI – data processing

4    Kansas              5        Work Release – data entry and counseling; CI – data entry
                                  and microfilm; Internal to Prison – data entry and
                                  counseling

5    Montana             1        Internal to Prison – data entry

6    Nebraska            1        CI – data entry; Internal to Prison – filing

7    New Mexico          1        CI – microfilm

8    North               1        CI – processing order forms
     Carolina

9    Oklahoma            2        CI – records conversion, microfilm, and optical imaging

10   South               1        CI – data entry
     Dakota

11   Tennessee           6        Work Release – different duties at different businesses;
                                  CI – imaging/scanning, data entry, field telephone calls,
                                  cleaning test materials

12   Utah                1        CI – data entry and scanning

13   West Virginia   Unknown*     Work Release – type of service depends on the business



*West Virginia stated that inmates may have access to Social Security numbers
through employment in work release programs. Specific correctional facilities
were not named.
                  Appendix C

Agency Comments
                                         SOCIAL SECURITY

MEMORANDUM


Date:      August 11, 2006                                                       Refer To: S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Larry W. Dye           /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, "Prisoners’ Access to Social Security
           Numbers" (A-08-06-16082)—INFORMATION


           We appreciate OIG’s efforts in conducting this review. Our comments on the draft report content
           and recommendations are attached.

           Please let me know if we can be of further assistance. Staff inquiries may be directed to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment:
           SSA Response




                                                         C-1
COMMENTS ON THE OFFICE OF INSPECTOR GENERAL (OIG) DRAFT
REPORT, “PRISONERS’ ACCESS TO SOCIAL SECURITY NUMBERS”
(A-08-06-16082)

Thank you for the opportunity to review and comment on the draft report. We appreciate
your conducting this audit of prisoners’ access to Social Security numbers (SSN). The
Agency has taken steps and has planned actions to reduce the potential risk associated
with allowing prisoners access to SSNs.

Recommendation 1

SSA should coordinate with the Department of Corrections and with the correctional
industry work programs to educate them about the potential risks associated with
allowing prisoners access to SSNs. For example, OIG believes that SSA should consider
hosting or participating in conferences to discuss ways prisons can enhance SSN
integrity.

Comment

We agree and support outreach efforts to educate the correctional community. As you
know, the Commissioner and SSA’s Inspector General, under joint signature, just
recently wrote to the National Correctional Industries Association, the National Sheriff’s
Association, the American Correctional Association, and the American Jail Association,
to inform them of the potential risks associated with prisoner access to SSNs. In
addition, the Agency continues to disseminate information on this subject by
coordinating educational outreach programs and public information programs with
correctional officials on a local, regional and national basis, and by having our public
information specialists conduct workshops and seminars with prison officials regarding
the potential risks.

Recommendation 2

SSA should encourage prisons to limit prisoners’ access to SSNs. For example, OIG
believes prisons should safeguard SSNs by limiting access to prison personnel with a
need to know and avoid displaying the entire SSN on any document, screen, or data
collection field.

Comment

We agree. However, we believe that prison officials should safeguard SSNs by not
allowing prisoners access to any documents, screens, or data collection fields that display
an SSN. The Agency believes encouraging prisons to limit prisoners’ access to SSNs
will prevent potential fraudulent use of SSNs by prisoners. As detailed in the recent
letters (referenced above in our reply to Recommendation 1), alternatives exist and the
Agency believes that prisons should either investigate the redaction software used by



                                            C-2
correctional industry work programs that prevent access to entire SSNs or reassign
prisoners to jobs that do not require access to SSNs.

Recommendation 3

SSA should promote the best practices of prisons that are taking steps to limit prisoners’
access to SSNs. For example, SSA could contribute articles to the Department of
Corrections/correctional industries journals and association newsletters.

Comment

We agree. The Agency supports public information and public education programs with
correctional officials that promote best practices of those prisons that help safeguard the
integrity of the SSN by preventing prisoner access. Some of these best practices were
detailed in the letters recently sent to the prison associations referenced above in our
reply to Recommendation 1.




                                            C-3
                                                                      Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Kimberly A. Byrd, Director, 205-801-1605

   Jeff Pounds, Audit Manager, 205-801-1606

Acknowledgments

In addition to those named above:

   Janet Matlock, Auditor in Charge

   Theresa Roberts, Audit Manager

   Kimberly Beauchamp, Writer-Editor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-08-06-16082.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                  Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
